ES, IG-98-009, NASA Data Center General Controls -- JPL
NASA DATA CENTER GENERAL CONTROLS -
JET PROPULSION LABORATORY
IG-98-009
Executive Summary
Introduction
The Jet Propulsion Laboratory (JPL) is a Federally Funded Research and Development
Center (FFRDC) operated by the California Institute of Technology (CalTech)
under NASA Contract NAS7-1260.  The Laboratory, staffed with largely CalTech
employees, is a Government-owned installation located in Pasadena,
California.  Its primary NASA mission is to conduct challenging robotic
space missions.  JPL also operates other NASA facilities in Southern
California, at the Goldstone Tracking Station and Talbe Mountain.  The NASA
Management Office (NMO) at JPL provides NASA management oversight of JPL
operations.
The NASA Office of Inspector General has completed an audit of JPL's
Institutional Processing Center (IPC).  The IPC houses computer systems for
three different operations: (1) Institutional Business Systems (IBS), (2)
Flight project systems, and (3) Supercomputing.  The IPC is also the hub for
JPL's high-speed network.
The primary focus of this audit was the IBS operations.  Its mainframe
computers operate 24 hours a day, 6.5 days a week.  The five major JPL
financial/administrative functions supported by the IBS are:
Acquisition;
finance;
human resources;
resource information; and
services and property.
The operation's primary goal is to ensure system availability, performance
accuracy and adequate response time to meet its service agreements with
users.  The IBS Manager reports to the JPL Controller.
Objectives
The objective of this audit was to determine whether JPL has established an
adequate internal control structure to provide for a reliable computing
environment, including:
physical and environmental protection; and
operating procedures associated with general computer operations, library management, data communications, storage management, backup and recovery, and software change management.
Results of Audit
Overall, JPL has established an adequate internal control structure to provide for a reliable computing environment.  However, we identified improvement opportunities in the areas of:  (1) automated information security planning and audits, (2) physical security, (3) automated job scheduling security, (4) technical support, (5) tape management, and (6) hardware/software change management.
Recommendations
This report provides recommendations which we believe will help improve controls in the areas cited above.  In some cases, management initiated immediate actions during audit field work to address our concerns.